State ofNew York
Court ofAppeals
Decided and Entered on the
twenty-seventh day ofMay, 2021
Present, Hon. Janet DiFiore, ChiefJudge, presiding.
SSD28
James W. Gilliam II,
Appellant,
v.
Discover Bank et al.,
Respondents.

Appellant having appealed to the Court of Appeals in the above title;
Upon the papers filed and due deliberation, it is
ORDERED, that the appeal is dismissed without costs, by the Court sua sponte,
upon the ground that no substantial constitutional question is directly involved.

>vigr

'~rr Heather Davis
Deputy Clerk of the Court

APPENDIX B:

State of New York Supreme Court, Appellate Division Third Judicial
DepartmentORDER dated March 25, 2021, denying Respondent's appeal.

iv

State of New York
Supreme Court} Appefiate Division
Tkirdjudicid Department
Decided and Entered:

March 25, 2021

531335

JAMES W. GILLIAM II
Appellant,
v

MEMORANDUM AND ORDER

DISCOVER BANK et al.,
Respondents.

Calendar Date:
Before:

February 5, 2021

Garry, P.J., Lynch, Aarons, Pritzker and Reynolds
Fitzgerald, JJ.

James W. Gilliam II, Warwick, appellant pro se.
Greenberg Traurig, LLP, New York City (Toby S. Soli of
counsel) and Kirschenbaum & Phillips, PC, Wantagh (Michael L.
Kohl of counsel), for respondents.

Aarons, J.
Appeal from an order of the Supreme Court (Meddaugh, J.),
entered April 26, 2020 in Sullivan County, which granted
defendants’ motions to dismiss the complaint.
In a separate action by defendant Discover Bank against
plaintiff's spouse, Discover Bank was awarded summary judgment
on its claim for an account stated. Defendant Kirschenbaum &
Phillips (hereinafter K&P) subsequently entered a money judgment
against the spouse. K&P then issued a restraining notice to the
bank where the spouse had an account, This account was held
jointly with plaintiff. Plaintiff, pro se, commenced this

-2-

531335

action alleging, among other things, that defendants
fraudulently restrained the funds in the joint bank account and
violated Judiciary Law § 487. In separate pre-answer motions
defendants moved to dismiss the complaint under CPLR 3211 (a)
(1). Supreme Court granted the motions. Plaintiff appeals. We
affirm.
The crux of plaintiff's complaint is that defendants
failed to comply with CPLR 5222-a when restraining the joint
bank account. K&P, as counsel to Discover Bank, is permitted to
issue a restraining notice (see CPLR 5222 [a]). Issuing such
notice requires that K&P provide the subject bank with "the
restraining notice, a copy of the restraining notice, an
exemption notice and two exemption claim forms" (CPLR 5222-a [b]
[1]). The record discloses that compliance with CPLR 5222-a (b)
(1) was met in that K&P sent to plaintiff's bank an information
subpoena with restraining notice, an exemption notice and two
blank exemption forms. Given that the documentary evidence
utterly refuted plaintiff's claims, Supreme Court correctly
granted defendants' motions (see Galway Co-Op.Com. LLC v Niagara
Mohawk Power Corp.. 171 AD3d 1283, 1284 [2019]).
To the extent that plaintiff argues that Supreme Court
should have vacated the order granting Discover Bank s summary
judgment motion or the subsequent judgment - both of which were
issued in Discover Bank's action against the spouse - such claim
is without merit. As the court correctly reasoned, it could not
overrule a court of coordinate jurisdiction (see Matter of Dondi
v_Jones, 40 NY2d 8, 15 [1976]). We also note that an appeal has
been taken from the order, and it is currently pending before
the Second Department. Plaintiff's remaining contentions are
either improperly raised for the first time on appeal or without
merit..
Garry, P.J., Lynch, Prit2ker and,Reynolds Fitzgerald, JJ.,
concur.

-3-

531335

ORDERED that the order is affirmed, without costs.

ENTER:

Robert D. Mayberger
Clerk of the Court

APPENDIX C:

Supreme Court of the State of New York County of Sullivan
DECISION/ORDER dated April 26, 2020, dismissing Petitioner’s cause of
action.

v

t*» AAJiTJW »

MVAJAJA YfUl

WW1 A A

u3/vs/4u^u uj;4Q rni

NYSCEF DOC. NO. 37

i«V »

RECEIVED NYSCEF: 05/04/2020

At a term of the Supreme Court of the
State of New York* held in and for the
County of Sullivan, at Monticello,
New York, on February 28,2020
SUPREME COURT OF THE STATE OF NEW YORK
COUNTY OF SULLIVAN
•X

JAMES W. GILLIAM II,
DECISION/ORDER

Plaintiff,
-against-

Index #E2019-2542

DISCOVER BANK, and
KIRSCHENBAUM & PHILLIPS, P.C.,
Defendant.
--------- -X

Present:

Mb V * V

Hon. Mark M. Meddaugh,
Acting Justice, Supreme Court

Appearances:

James W. Gilliam, H
Pro se Plaintiff
75 West Street
Warwick, NY 10990
Greenberg Traurig, LLP
by: Timothy E. DiDomenico, Esq. and Toby S. Soli, Esq.
Attorneysfor the Defendant, Discover Bank
445 Hamilton Avenue, 9* Floor
White Plains, NY 10601
Kirschenbaum & Phillips, P.C.
By: Michael L. Kohl, Esq.
Attorneys for the Defendant,
Kirschenbaum & Philips, P.C.
3018 Merrick Road
Wantagh, NY 11793

MEDDAUGH, J.:
By Notice of Motion dated February 12,2020, the Defendant, Kirschenbaum & Phillips,
P.C., by its attorney filed a motion seeking to dismiss the Plaintiffs complaint against it.

By Notice ofMotion dated February 7,2020, the Defendant, Discover Bank, filed a
motion seeking to join in the motion to dismiss made by co-Defendant, Kirschenbaum &

ic xnau , owii.uxvftH mum x
NYSCEF DOC. NO. 37

uja&jhji

uj/us/zuzu

uj;<sc

imi

•fci’ i*'XJ4 »

*«S^*

Ui, V 1.

RECEIVED NYSCEF: 05/04/2020

Index # E2019-2542
Phillips, P.C., adopting and incoiporating by reference each of the arguments set forth in the coBefendant’s Motion.
Prior to the motions being filed, but after a court appearance on January 15,2020, the
Plaintiff filed a Memorandum in opposition to “any and all” motions to dismiss and for summary
judgment, which was verified on January20,2020. Thereafter, the Plaintiff filed an Addendum
to his Memorandum of Law opposing the Defendants* motion to dismiss, dated February 15,
2020.
By Affirmation in Reply, dated February 27,2019, Michael L. Kohl, Esq., of
Kirschenbaum & Phillips, P.C., replied to the Plaintiff’s opposition.
This is an action which arises out of consumer credit action which was brought in the
Orange County Supreme Court by the Defendant herein, Discover Bank, against the Plaintiff’s
wife, Laura Gilliam, in which Discover Bank was granted summary judgment, by
Decision/Order dated January 22,2018, and was awarded a judgment in the amount of
$12,704.04 together with costs and disbursements. A judgment in the amount of $13,354.04 was
entered in the Orange County Clerk’s Office on February 15,2018.
The judgment was appealed in the Second Department, and it appears that the appeal is
still pending. The attorney for Kirschenbaum & Phillips asserts that the appellant did not seek a
stay of enforcement of the judgment in either the Supreme Court or the Appellate Division.
In the instant action, the Plaintiff seeks to vacate the judgment entered against his wife in
the Orange County Supreme Court, and he also claims that the restraint placed on the joint bank
account of the Plaintiff and his wife was done without following the proper procedures.
In their motions to dismiss, the Defendants argue that the Plaintiff lacks standing to bring
this action to vacate a judgment entered against his wife. It is further argued that collateral
estoppel bars the Plaintiff from relitigating issues previously decided in the Orange County
2
2 of 10

lg xxiCil; ;

QWAiiavftH WUWII C-UCitm UJ/U^/^UCU uj;4Q imi

NYSCEF DOC. NO. 37

a

*«

RECEIVED NYSCEF: 05/04/2020

Index# E2019-2542
action, and finally, that CPLR §5015(a) requires that an application to vacate a judgment be
brought before the same court which rendered the judgment.
Hie Defendants also refute the Plaintiffs claims that the restraint of the parties’ jointly
held bank account was not done in accordance with the requirements of CPLR §5222-a.
In his complaint and his initial submission opposing the motions to dismiss, the Plaintiff
makes a number of arguments regarding the alleged invalidity of the underlying judgment,
including that discovery was not provided in the Orange County action, that the Defendants
herein engaged in fraud, have unclean hands, and that the firm of Kirschenbaum & Phillips, P.C.
engaged in attorney misconduct as defined in Section 487 of the Judiciary Law. Finally, it is
argued that the Orange County Supreme Court did not permit him to defend the action as his
wife’s attomey-in-fact, pursuant to a power of attorney.
In addition to alleging these infirmities in the underlying judgment, the Plaintiff asserted
that the restraining notice failed to comply with Section 5222-a of the CPLR, in that the bank
account which he holds in joint names with his wife was restrained without first giving him an
opportunity to claim that the property was exempt
In his supplemental submission in opposition, the Plaintiff argues that the Defendants’
motion to dismiss was not filed until February 13,2020, which failed to comply with the Court’s
direction in a Letter Order dated January 16,2020, requiring that the motions be made by
February 7,2020.
In reply, it is requested that the Court extend the deadline pursuant to CPLR §2004, in the
absence of any prejudice shown by the Plaintiff, It is further argued by the attorneys for
Kirschenbaum & Phillips, P.C., that the delay was caused by the submission on February 4,
2020, of Plaintiff s Memorandum in opposition to the Defendants* anticipated motions, which

3
3 of 10

vm^i

WVMAi.

Uj;^Q

NYSCEF DOC. NO. 37

yni

RECEIVED NYSCEF: 05/04/2020

Index #E2019-2542
memorandum was 41 pages in length, thus requiring the Defendant to te-do its motion papers to
address the myriad of issues raised in the memorandum.
CONCLUSIONS OF LAW
The Court finds an initial matter that it shall extend, nunc pro tunc, the deadline for the
Defendant, Kirschenbaum & Phillips, P.C., to make its motion to dismiss, pursuant to CPLR
§2004, based upon the Defendant’s showing of good cause, and in the absence of any
demonstrated prejudice by the Plaintiff.
The Court has reviewed the procedure followed by the attorney for Discover Bank in
restraining the Plaintiffs bank account, and finds that there was full compliance with CPLR
§5222-3.
The garnishee bank, Key Bank, was sent two copies of information subpoenas mid
restraining notices, together with an exemption notice, and two exemption claim forms which
complied with CPLR §5222-a (b)(4). The cover letter sending these documents to Key Bank was
dated November 16,2019 (a Saturday), and Key Bank responded to them on November 20,2019
(Wednesday). On the same date, Key Bank also sent a letter to the judgment debtor advising her
that $ 1,272.64 in one of the accounts that she holds in joint names with her husband, James
Gilliam, had been restrained, together with a $100.00 litigation fee. The judgment debtor was
also provided with the exemption notice, as well as the exemption claim forms. Section 5222a(b)(3) of the CPLR requires that these documents be sent within two business days of the
bank’s receipt of the restraining notice, which was complied with in this case.
The Plaintiff herein, James Gilliam, responded on November 26,2019, acknowledging
receipt of Key Bank’s letter, claiming that he and his wife had previously submitted exemption
claim forms dated July 19,2019, to Kirschenbaum & Phillips, P.C., in response to an
Information Subpoena and restraining notice served on Laura Gilliam, as the judgment debtor on
4
4 of 10

ij

UWU1UI UJaJSlUS. U 3/U%/ZU4U UJ.ve yju

Ajjau.

NYSCEF DOC. NO. 37

RECEIVED NYSCEF: 05/04/2020

Index # E2019-2542
July 15,2019. Hie Plaintiff asserts that these exemption claim forms established that the funds in
flieir accounts was exempt, consisting of direct deposited social security, YA disability
payments, and a retirement annuity (see, CPLR §5222-a(b)(4». Mr. Gilliam indicates in his
letter to the bank that he was attaching the exemptions claim forms previously provided to
Kirschenbaum & Phillips, P.C., together with supporting documentation.
Key Bank responded to the information subpoena and restraining notice served upon it in
November of2019, by faxing an exemption claim form to Kirschenbaum & Phillips, P.C. on
December 6,2019, which was within twenty days ofNovember 16,2019. The Plaintiff herein,
did not send his November 26,2019 letter to Kirschenbaum 8c Phillips, P.C., nor did she
complete the new exemption claim forms which were sent to his wife by Key Bank, within
twenty days of the date that they were sent to her (see CPLR §5222-a(4)€>).
Despite the fact that die Judgment Debtor failed to comply with CPLR §5222-a (4)©, in
that she failed to send her exemption claim form to Kirschenbaum & Phillips, P.C., the firm
voluntarily withdrew the restraining notice on December 6,2019, eight hours prior to receiving
the exemption claim form from Key Bank.
Based on all of the foregoing, the Court finds the Defendants have established (hat they
fully complied with CPLR §5222-a.
It appears that the Plaintiff is also arguing that his funds cannot be restrained prior to
being notified of his right to claim that the funds are exempt. Section 5222(b) ofthe CPLR,
which governs restraining notices in general, provides, in pertinent part, that:
A judgment debtor or obligor served with a restraining notice is forbidden to
make or suffer any sale, assignment, transfer or interference with any property in
which he or she has an interest, except as set forth in subdivisions (h) and (I) of
this section, and except upon direction of the sheriff or pursuant to an order of the
court, until the judgment or order is satisfied or vacated.

5
5 of 10

I«*»

w »

WVAI*I*T<W

WWUHAA

v^ixc«x\rv uj/u*i/^u^u uj;zo «mi

NYSCEF DOC. NO. 37

XtIVJJJl

11V »

ULVX J

RECEIVED NYSCEF: 05/04/2020

Index # E2019-2542
Subdivision (h) provides, in pertinent part, that:
“if direct deposit or electronic payments reasonably identifiable as statutorily
exempt payments as defined in paragraph two of subdivision (1) of section
fifty-two hundred five of this article were made to the judgment debtor's account
during the forty-five day period preceding the date that the restraining notice was
served on the banking institution, then the banking institution shall not restrain
two thousand five hundred dollars in the judgment debtor’s account ”
Subdivision (I) provides that a restraining notice shall not apply to an amount that is two
hundred and forty times the federal minimum hourly wage, currently$7.25 per hour
(https://www.dol.gov/generaiytopic/wages/minimumwagel. or $1,740.00.
In the case at bar, the bank exempted $3,600.00 in the Plaintiff s bank account from
restraint (Def. Ex. G).
Section 5222(e) of theCPLR advises die judgment debtor that in order to claim that the
account contains exempt funds, he or she “must act promptly because the money may be applied
to the judgment or order.”
Similarly, Section 5222-a(c)(3) of the GPLR provides, that:
the banking institution shall release all funds in the judgment debtor's account
eight days after the date postmarked on the envelope containing the executed
exemption claim form mailed to the banking institution or the date of personal
delivery of the executed exemption claim form to the banking institution, and the
restraint shall be deemed Void, except where the judgment creditor interposes an
objection to the exemption within that time.
Section 5222-a(c)(4) of the GPLR provides, in pertinent part, that:
Where the executed exemption claim form sent to the judgment creditor is
accompanied by information demonstrating that all funds in the account are
exempt, the judgment creditor shall, within seven days of the postmark on the
envelope containing the exemption claim form and accompanying information,
instruct the banking institution to release the account, and the restraint shall be
deemed void.
The foregoing provisions of GPLR §5222 and §5222-a make it clear that, upon receipt of
a restraining notice/ the bank cannot release the funds until eight days after the bank is notified
6
6 of 10

WW^l ^ A

v^/ U»/ *\J*V

UJ :

NYSCEF DOC. NO. 37

ywi

4i

V •

-kJA* w A M*

RECEIVED NYSCEF: 05/04/2020

Index #E2019-2542
of the judgment debtor’s claim that the restrained funds are exempt, except as provided in CPLR
5222(h) and (I).
Therefore, the Plaintiff s claim that the Defendants conspired to circumvent CPLR
§5222-a is without merit.
The Plaintiff has also asserted that die amount of the judgment listed in the restraining
notice ($13,354.04) was incorrect, in that the Decision and Order granting summary judgment to
Discover Bank awarded it a judgment of $12,704.04. A review of the Decision and Order from
Orange County, dated Januaiy 22,2018 (see, Def. Ex. C), reveals that Discover Bank was
awarded a judgment of $12,704.04, “together with the costs and disbursements of this action.”
Thereafter, a judgment was entered in the Orange County Clerk’s Office in the amount of
$13,354.04, which included $650.00 in costs, Therefore, the amount of the judgment listed in
die restraining notice was the correct amount.
The Court also finds, that based on foregoing, there is no basis to find that the Defendant,
Kirschenbaum & Phillips, P.C., engaged in any attorney misconduct with regard to the
restraining notice and their efforts to enforce the judgment.
The Plaintiff has alleged that Kirschenbaum & Phillips, P.C. engaged in misconduct by
providing Key Bank with the blank exemption forms in November of 2019, after having
received the exemption foim from the Judgment debtor in July of 2019, which indicated that she
was unemployed and that all of her household income was derived from her husband.
Section 5222© of the CPLR provides that leave of court is required to serve more than
one restraining notice upon the same person with respect to the same judgment or order, and that
a judgment creditor shall not serve more than two restraining notices per year upon a natural
person's banking institution account The Defendant’s herein did not violate this provision.
There is no statutoiy requirement that the judgment creditor provide the banking institution with
7
7 of 10

icx-uci-/. oui4ij.viu?< wuHii

uj/u^/^u^u uj;4Q rroi

NYSCEF DOC. NO. 37

RECEIVED NYSCEF: 05/04/2020

Index# E2019-2542
an exemption claim form previously provided by the judgement debtor, and as found above* the
judgment creditor and Kirschenbaum & Phillips* P.C. complied with the requirements of CPLR
5222-a (b) with regard to service of the restraining notice, the exemption notice and exemption
claim forms.
The Plaintiff also seeks to vacate the judgment issued by the Orange County Supreme
Court* in the action entitled Discover Bank v. Laura Gilliam. Index # Index No* 6315/2017.
Ihe Defendants have moved to dismiss the Plaintiffs complaint which on the basis of a
defense founded upon documentary evidence (CPLR 3211 ([a][l]), on the ground s of collateral
estoppel (CPLR 3211 ([a][5]), and on the grounds that the pleading fails to state a cause of
action (CPLR 321 l([a][7]).
“A court of coordinate jurisdiction has no authority to rule on a matter already reviewed
by another Judge of equal authority” and the Plaintiff herein has inteiposed claims that were
already reviewed and ruled upon in the Orange County action (None Yaw Trdkansook v. 39
Wood Realty Coro,. 18 A.D.3d633* 634*796N.Y.S.2d367,368 [2 Dept., 2005]).
Furthermore Rule 5015 ofthe CPLR provides, in pertinent part, that “[t]he court which
rendered a judgment or order may relieve a party from it upon such terms as may be just, on
motion of any interested person with such notice as the court may direct.” A litigant’s remedy
for fraud, or other alleged misconduct of an adverse party committed in the course of a prior
proceeding (see CPLR 5015 (aX3), “lies exclusively in that lawsuit itself, i.e., by moving
pursuant to CPLR 5015 to vacate the civil judgment due its fraudulent procurement, [or other
misconduct], not a second plenary action collaterally attacking the judgment in the original
action” (Vinokur v. Penny Lane Owners Coro.. 269 AJD.2d 226,226,703 N.Y.S.2d 35 [1 Dept.,
2000];jsee also, KaiLin y. Dep't ofDentistry, Univ, ofRochester Med. Ctr.. 120 AJD.3d 932,
991 N.Y.S.2d207[4Dept., 2014], Iv.denied, 24N.Y.3d916,4N.Y.S.3d 602[2015]).The
8
8 of 10

ir-Lj-dsu: auijijxvAw wuwxi

vo/yq/^u^v vj:^p gwi

NYSCEF DOC. NO. 37

nw •

RECEIVED NYSCEF: 05/04/2020.

Index # E2019-2542
Third Department held in Hrouda v. Winne. 11 A.D.2d 62, 432 N.Y.S.2d 643 (3 Dept., 1980)
that the Court in which a proceeding is brought to vacate an order issued by another Judge of
»•

equal authority, Is without jurisdiction to entertain the application.
i

-

Accordingly, the Court finds that the portion of the Plaintiff’s complaint which seeks to
vacate the judgment issued by die Orange County Supreme Court, which is currently the subject
of an appeal in the $econd Department, must be dismissed for a failure to state a cause of action,
and pursuant to CPLR 5015.
WHEREFORE, based on the foregoing, it is hereby
ORDERE D that the motions of the Defendants, Kjrschenbaum & Phillips, P C. and
Discover Bank, are Ranted in their entirety and it is further
ORDERED the Plaintiff s complaint is dismissed.
This memorandum shall constitute the Decision and Order of this Court. The original
Decision and Order, together with the motion papers have been forwarded to the Clerk’s office
for filing. The filing of this Order does not relieve counsel from the obligation to serve a copy of
this order, together with notice of entry, pursuant to CPLR § 5513(a).
Dated: April 26, 2020
Monticello, New York
ENTER

mmmrF
^

Acting Supreme Court
Papers Considered:
1.
2.
3.

Notice of Motion to Dismiss of the Defendant, Kirschenbaum & Phillips, P.C., dated
February 12,2020
Affirmation in Support of Michael L. Kohl, Esq., affirmed on January 30, >2020
Affirmation in Support of Janies M. Scully, Esq., undated, but Efiled On February 13,
2020

9
9 of 10

